U.S. Department of                                       The Inspector General            Office of Inspector General
Transportation                                                                            Washington, DC 20590
Office of the Secretary
of Transportation


October 18, 2010

The Honorable Patty Murray                                    The Honorable John W. Olver
Chairman                                                      Chairman
Subcommittee on Transportation,                               Subcommittee on Transportation,
Housing and Urban Development, and                            Housing and Urban Development, and
Related Agencies                                              Related Agencies
Committee on Appropriations                                   Committee on Appropriations
United States Senate                                          United States House of Representatives
Washington, DC 20510                                          Washington, DC 20515

The Honorable Christopher “Kit” Bond                          The Honorable Tom Latham
Ranking Member                                                Ranking Member
Subcommittee on Transportation,                               Subcommittee on Transportation,
Housing and Urban Development, and                            Housing and Urban Development, and
Related Agencies                                              Related Agencies
Committee on Appropriations                                   Committee on Appropriations
United States Senate                                          United States House of Representatives
Washington, DC 20510                                          Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Latham:

According to the Federal Highway Administration (FHWA), about one-fourth of the
Nation's more than 600,000 bridges have major deterioration, cracks in their structural
components, or other deficiencies. Given the enormity of the problem, and the
limited funding available to address such deficiencies, FHWA's oversight activities
must incorporate targeting higher priority bridge safety risks. Over the last 4 years,
we have issued three reports on the challenges FHWA faces in improving its bridge
oversight. Our January 2009 report, 1 in particular, addressed FHWA's use of data-
driven, risk-based oversight to target bridge safety risks most in need of attention.
Provisions in the Senate Appropriations Committee Report 2 accompanying the fiscal
year 2010 appropriations bill for the Departments of Transportation and Housing and
Urban Development, and Related Agencies direct the Office of Inspector General to

1
    OIG Report Number MH-2009-013, “National Bridge Inspection Program: Assessment of FHWA’s Implementation of
    Data-Driven, Risk-Based Oversight,” January 12, 2009. OIG reports are available on our website: www.oig.dot.gov.
2
    S. Rep. No. 111-69 (August 5, 2009).


Control No. 2010-017
                                                                                                                           2


evaluate actions FHWA has taken to date to address recommendations in the January
2009 report. This letter fulfills that directive.

Summary
In January 2009, we reported that FHWA had made limited progress implementing
data-driven, risk-based bridge oversight and that its role in expanding states' use of
bridge management systems could be strengthened. We made five recommendations
and FHWA agreed to take corrective action in response to all of them. FHWA has
completed actions in response to one recommendation, but has yet to fully implement
actions in response to the other four. Specifically, FHWA established a new
procedure requiring states to correct significant errors in data files submitted for
FHWA's National Bridge Inventory (NBI). 3 This action fully addressed one of our
recommendations. To address our other recommendations, FHWA developed data-
driven, risk-based metrics that can be used in assessing state compliance with the
National Bridge Inspection Standards (NBIS) 4 and initiated a pilot program at 12
Division Offices using the new metrics. FHWA has also integrated its strategic
planning and risk assessment processes to create a corporate risk assessment program
that will identify nationwide bridge safety risks. However, FHWA has not directed its
Division Offices to work with states to mitigate such risks. FHWA committed to
doing so in its written response to the January 2009 report. Fulfilling this
commitment and completing other actions now underway is critically important to
ensuring that FHWA's oversight activities address the Nation's most significant bridge
safety risks. Details of our report findings and FHWA’s actions taken to date in
response to the recommendations are presented below.

FHWA Completed Action To Mitigate Data Inaccuracies, but Other
Promised Actions for Enhancing Data-Driven, Risk-Based Bridge
Oversight Are Not Yet Fully Implemented
FHWA completed action to require states to promptly correct data inaccuracies found
by FHWA’s NBI data validation program. As stated in our report, having accurate
NBI data is essential for FHWA to perform effective data-driven oversight. Under a
new procedure established by memorandum, NBI data files submitted with significant
errors will now be returned to states through the Division Offices for immediate
resolution. FHWA's corrective action fully addressed our recommendation.

Additionally, FHWA agreed to address nationwide bridge safety risks, but FHWA has
not fully implemented its plan and directed Division Offices to coordinate the effort

3
    The NBI database includes records with information on the location, age, condition, and load rating and posting of nearly
    600,000 public highway bridges nationwide.
4
    FHWA sets the standards for proper safety inspections of public highway bridges through the NBIS. The NBIS outlines
    requirements regarding the frequency with which states should conduct inspections, the qualifications of inspection
    personnel, and the data to be collected.




Control No. 2010-017
                                                                                                                   3


with states. Specifically, FHWA agreed to develop a comprehensive plan to routinely
conduct systematic, data-driven analysis to identify nationwide bridge safety risks,
prioritize them, and target those higher priority risks for remediation in coordination
with states. FHWA stated in its written response to the report that it would direct
Division Offices to work with states to mitigate higher priority bridge safety risks. To
date, FHWA has developed and implemented a corporate risk assessment program
that integrates its strategic planning and risk assessment processes to identify higher
priority bridge safety risks, but has not directed Division Offices to work with states
to mitigate such risks. It is critically important that FHWA follow through and fully
implement its promised action to ensure that its oversight activities address the
Nation's most significant bridge safety risks.

FHWA also agreed to develop and implement minimum requirements to be used
during annual NBIS compliance reviews, but it has not completed this action. We
reported significant differences in how FHWA bridge engineers at 10 Division
Offices used NBI data reports and conducted risk assessments of states’ load rating
and posting practices. As a result, bridge engineers missed opportunities to identify
and remediate bridge safety risks in coordination with states. 5 We attributed these
differences to FHWA’s lack of minimum requirements for bridge engineers
performing data-driven, risk-based oversight. FHWA's activities have included
developing a uniform definition of NBIS compliance and data-driven, risk-based
metrics that can be used in assessing state compliance. FHWA has also initiated a
pilot program at 12 Division Offices using the new metrics. It plans full
implementation by January 2011, in time for the 2011 annual compliance review.

Further, FHWA agreed to update the standards for data used to characterize a bridge’s
condition, but FHWA has not completed this action; we expected this effort to be
time-consuming given its complexity. We recommended that FHWA coordinate with
the American Association of State Highway and Transportation Officials (AASHTO)
to update the standards for element-level data (i.e., more detailed, less subjective data
to characterize a bridge’s condition), use the rulemaking process to incorporate
AASHTO’s updated standards into the NBIS, and develop and implement a plan to
collect element-level data after the NBIS has been updated. We reported that having
more detailed bridge data would help FHWA more accurately identify and assess
bridge conditions nationwide and better determine the appropriate levels of
investment necessary to maintain and improve the Nation’s bridges. FHWA's
activities have included participating in an AASHTO task group to develop and
implement the best approach to assessing bridge conditions. The task group's
proposed changes were approved during the meeting of the AASHTO Subcommittee


5
    We conducted our audit at 10 FHWA Division Offices in 10 states and at FHWA Headquarters. Our January 2009 report
    provides our selection criteria.




Control No. 2010-017
                                                                                     4


on Bridges and Structures in May 2010. FHWA is working with AASHTO to
develop a plan for implementing the changes by mid-2011.

FHWA Has Not Followed Through and Provided Support to States Most
in Need of Assistance in Implementing Effective Bridge Management
Systems
FHWA agreed to target states most in need of assistance in implementing effective
bridge management systems for technical assistance and training resources, but has
not fully implemented its corrective action. These systems can recommend bridge
replacement and repair projects that, given limited resources, best address safety
priorities. We found as part of our audit that states were not fully benefiting from
bridge management systems in part because FHWA played a limited role in
expanding states' use of them. FHWA responded by developing a survey to collect
data at the Division Office level on states’ use of bridge management systems, but has
not followed through and provided support to those states most in need of assistance.
FHWA's efforts will not be completed until it takes the necessary step of using the
survey data to target its technical assistance and training resources as appropriate.

In closing, we commend FHWA for the action it took in resolving errors in NBI data
files and for the other actions that are underway. However, FHWA must follow
through on its plan to work with states in mitigating higher priority nationwide bridge
safety risks; implement its uniform definition of NBIS compliance and data-driven,
risk-based metrics; work with AASHTO to update standards for element-level data;
and provide support to states most in need of assistance with bridge management
systems. Accordingly, we will continue our monitoring efforts of FHWA's actions
until it demonstrates that it has fully implemented all our recommendations.

Thank you for your continuing efforts to improve safety oversight of the Nation’s
bridges. If you have any additional questions, please contact me at 202-366-1959 or
Joseph Comé, Assistant Inspector General for Highway and Transit Audits, at
202-366-5630.

Sincerely,




Calvin L. Scovel III
Inspector General




Control No. 2010-017
